          Office of Inspector General




March 31, 2006

NICHOLAS F. BARRANCA
VICE PRESIDENT, PRODUCT DEVELOPMENT

SUBJECT:       Audit Report - PC Postage Refund Review
               (Report Number MS-AR-06-002)

This report presents the results of our audit of the PC Postage program refund
review procedures (Project Number 05WG014MS000). The report responds to a
request from the former manager, Program Technology Management, to review
the refund review procedures’ effectiveness and efficiency.

Overall, the U.S. Postal Service’s PC Postage refund process was effective and
efficient. During our review, Postal Service management took actions to improve
program efficiency. In addition, we believe there are opportunities to improve
program oversight. Management needs to improve its use of statistical sampling
when reviewing refund requests, update requirements for access to providers’
records, request that providers improve security over the storage and destruction
of non-dated indicia, and request a system change to prevent duplication of
reimbursements to providers. Management could have saved $102,000 by
testing refund requests only for the existence of errors, rather than dollar values.
The $102,000 will be reported as unrecoverable costs in our Semiannual Report
to Congress.

Management agreed with our four recommendations and has initiatives in
progress, completed, or planned addressing the issues in this report.
Management also concurred with the findings and monetary benefits as reported.
Management’s comments and our evaluation of these comments are included in
this report.
We appreciate the cooperation and courtesies provided by your staff during the
audit. If you have any questions or need additional information, please contact
Robert Mitchell, director, Marketing, or me at (703) 248-2300.

   E-Signed by Mary Demory
ERIFY authenticity with ApproveI




Mary W. Demory
Deputy Assistant Inspector General
 for Headquarters Operations

Attachments

cc: Anita J. Bizzotto
    Daniel J. Lord
    James R. Poland
    H. Pete Stark
    James M. Grahn
    Steven R. Phelps
PC Postage Refund Review                                      MS-AR-06-002



                              TABLE OF CONTENTS

 Executive Summary                                             i

 Part I

 Introduction                                                  1

    Background                                                 1
    Objective, Scope, and Methodology                          2
    Prior Audit Coverage                                       2

 Part II

 Audit Results                                                 3

    Opportunities for More Efficiency                          3

           Statistical Sampling Needs Improvement              3
           Refund Review Requirements Should be Documented     5

    Recommendations                                            5
    Management’s Comments                                      5
    Evaluation of Management’s Comments                        6

    Need for More Effective Oversight Controls                 7

           Non-dated Indicia Should be Secured                 7
           Controls Over Destruction Should be Strengthened    8
           System Processing and Accounting Controls Need      9
             Strengthening

    Recommendations                                            9
    Management’s Comments                                     10
    Evaluation of Management’s Comments                       10

 Appendix A. Statistical Review                               11

 Appendix B. Management’s Comments                            13
PC Postage Refund Review                                                     MS-AR-06-002



                             EXECUTIVE SUMMARY
 Introduction              This report presents the results of our audit of PC Postage
                           refund review procedures. We performed this audit at the
                           request of U.S. Postal Service management. Our objective
                           was to assess the effectiveness and efficiency of the Postal
                           Service’s PC Postage refund process.

 Results in Brief          Overall, the Postal Service’s PC Postage refund process
                           was effective and efficient. During our review, Postal
                           Service management reduced the program’s operating
                           budget in order to make the program more efficient.
                           Postage Technology Management (PTM) published a
                           refund procedures document in January 2006, with full
                           compliance mandatory by April 1, 2006. PTM is also
                           working to fully integrate PC Postage products into the
                           Code of Federal Regulations.

                           In addition, we believe there are opportunities to improve
                           program oversight. PTM needs to improve its use of
                           statistical sampling when reviewing refund requests, and
                           update requirements for access to providers’ physical and
                           electronic records. Security and access controls over the
                           storage and destruction of non-dated indicia at one PC
                           Postage provider were inadequate. Finally, although the
                           Postal Service’s National Meter Accounting and Tracking
                           System can verify that a customer account is closed and a
                           requested refund amount is correct, it cannot determine
                           whether a provider previously received reimbursement for
                           the account.

 Summary of                We recommended the vice president, Product
 Recommendations           Development, require the manager, PTM, to coordinate with
                           the Postal Service’s Statistical Programs Office to develop a
                           valid refund sampling plan that would provide the required
                           oversight and minimize Postal Service resource
                           expenditures.

                           We also recommended that PTM management update
                           guidelines to ensure that providers’ systems of records are
                           available to the Postal Service using remote methods and
                           add the requirements for properly documenting the value of
                           destroyed non-dated indicia, as well as Postal Service
                           presence and verification of the destruction.




                                            i
PC Postage Refund Review                                                      MS-AR-06-002



                           Finally, we recommended that PTM management
                           coordinate with the Eagan Integrated Business Systems
                           Solutions Center to request a National Meter Accounting
                           and Tracking System change to help prevent duplicate
                           payments for closed accounts.

 Summary of                Overall, management agreed with our findings,
 Management’s              recommendations, and monetary benefits. Specifically,
 Comments                  management agreed to develop a valid sampling plan,
                           update program guidelines to reflect access to records and
                           indicia destruction procedures, and request a system
                           change for a necessary data field. Management’s
                           comments, in their entirety, are included in Appendix B of
                           this report.

 Overall Evaluation of     Management’s comments are responsive to the
 Management’s              recommendations. Actions planned, in progress, and
 Comments                  completed, address the issues identified in the report.




                                            ii
PC Postage Refund Review                                                                           MS-AR-06-002



                                             INTRODUCTION
    Background                      PC Postage is a trademark of the U.S. Postal Service for
                                    products developed by commercial vendors that allow
                                    customers to print postage from personal computers.
                                    Customers can print postage onto envelopes, labels, and
                                    documents such as self-mailers. The Postal Service
                                    licenses and authorizes Endicia.com (PSI Systems Inc.),
                                    Pitney Bowes Inc., and Stamps.com as official developers
                                    and sellers of PC Postage products.

                                    To purchase postage, a customer establishes a connection
                                    with a PC Postage vendor’s Internet site. Payment is made
                                    through an automated clearing house transaction or by
                                    credit card. Customers can store and access the prepaid
                                    postage value stored on the vendor’s Internet site.

                                    When the customer prints postage, the dollar amount is
                                    deducted from the prepaid account. The PC Postage
                                    vendors establish their own license fees for software and
                                    hardware, plus service fees. The Postal Service receives
                                    full payment for the amount of postage printed.

                                    The computer prints a special digital imprint called an
                                    Information Based Indicia (IBI). This indicia is valid
                                    postage. The IBI contains the date, class of mail, postage
                                    amount, originating ZIP Code, and a unique device
                                    identification number. It also has a unique two-dimensional
                                    barcode that contains ascending and descending register
                                    values, machine-readable mail processing information, and
                                    security data for revenue protection.

                                    Customers request refunds for unused indicia and the
                                    unused postage value remaining in their accounts. The
                                    authorized provider grants or denies requests using
                                    established Postal Service criteria.1

                                    The PC Postage program generated approximately
                                    $359 million in Postal Service revenue during fiscal year
                                    (FY) 2005, a 47.7 percent increase over FY 2004 revenue.
                                    As of September 2005, the PC Postage program served
                                    over 512,000 customers, an increase of 18.7 percent from
                                    September 2004. Total refunds paid by the Postal Service
1
    Pitney Bowes Inc. does not request or receive reimbursement for PC Postage customer refunds.




                                                          1
PC Postage Refund Review                                                                        MS-AR-06-002



                                 to PC Postage providers were about $2.5 million in calendar
                                 year 2004.

                                 The Postal Service Postage Technology Management
                                 (PTM) program office is responsible for regulating and
                                 managing the PC Postage program, which includes setting
                                 policy and ensuring that PC Postage providers issue
                                 customer refunds according to Postal Service policy.

    Objective, Scope, and        Our objective was to assess the effectiveness and efficiency
    Methodology                  of the Postal Service’s PC Postage refund process. We
                                 reviewed PC Postage refund requests processed by PC
                                 Postage providers on behalf of the Postal Service for the
                                 2-year period of May 2003 to May 2005. To accomplish our
                                 objective, we reviewed the costs incurred to conduct
                                 physical reviews of sampled items at each PC Postage
                                 provider location and the processes associated with
                                 performing each of the 15 reviews conducted within our
                                 scope. We compared the cost to complete the reviews to
                                 the value of the refund reviews and validated the Postal
                                 Service’s methodology for sampling refund requests. We
                                 reviewed Postal Service and contractor2 employees’ travel
                                 reimbursement requests, contractor billings, and letters sent
                                 to PC Postage providers outlining the results of the reviews
                                 performed.

                                 We conducted this audit from June 2005 through
                                 March 2006 in accordance with generally accepted
                                 government auditing standards and included such tests of
                                 internal controls as we considered necessary under the
                                 circumstances. We discussed our observations and
                                 conclusions with management officials and included their
                                 comments where appropriate.

    Prior Audit Coverage         We did not identify any prior audits or reviews related to the
                                 objective of this audit.




2
 Currently, the PTM group manages two contracts associated with the PC Postage program, Watkins Consulting Inc.
and Zerone, under which contractor employees provide support for the Meter and PC Postage programs. This
support includes performing physical refund reviews of PC Postage.




                                                       2
PC Postage Refund Review                                                                              MS-AR-06-002



                                            AUDIT RESULTS

                                   Overall, the Postal Service’s PC Postage refund process
                                   was effective and efficient. During our review, Postal
                                   Service management reduced the program’s operating
                                   budget in order to make the program more efficient.
                                   PTM published a refund procedures document in
                                   November 2005, with full compliance mandatory by April 1,
                                   2006. PTM is also working to fully integrate PC Postage
                                   products into the Code of Federal Regulations.

                                   In addition, we believe there are opportunities to improve
                                   program oversight. PTM should improve its use of
                                   statistical sampling when reviewing refund requests, and
                                   update requirements for access to providers’ physical and
                                   electronic records. Security and access controls over the
                                   storage and destruction of non-dated indicia at one provider
                                   were inadequate. Finally, although the Postal Service’s
                                   National Meter Accounting and Tracking System can verify
                                   that a customer account is closed and a requested refund
                                   amount is correct, it cannot determine whether a provider
                                   previously received reimbursement for the account.

    Opportunities for              PTM can improve its oversight of the of PC Postage refund
    More Efficiency                process. As noted in the footnote on page 2 of this report,
                                   PTM employs two companies to perform refund reviews,
                                   which currently requires quarterly travel to two of the
                                   three providers. PTM uses statistical sampling techniques
                                   to perform physical refund reviews.

    Statistical Sampling           The PTM office used an inefficient sampling methodology
    Needs Improvement              when reviewing refund requests. For the two samples we
                                   reviewed, PTM’s sampling methodology did not produce
                                   usable precision3 either for rejecting the refund requests or
                                   indicating an adjustment amount. This occurred because
                                   PTM did not consider sampling precision when developing
                                   the individual samples or evaluating sample results.
                                   Achieving sufficient precision to support adjusting the dollar

3
  Precision is a measure of the closeness of a sample estimate to the true value of the corresponding population
characteristic, for a specified confidence level. Precision comes into a sample-based review at two points. First,
precision is used, in combination with other factors, to establish a sample size. Second, after the sample has been
analyzed, achieved precision is calculated. The achieved precision may be better or worse than the desired
precision. Achieved precision is an important indicator of whether enough testing was performed, that is, whether the
sample was large enough. In this case, the result is inconclusive because precision is insufficient to state whether
“party A” owes “party B” money, or the reverse.




                                                          3
PC Postage Refund Review                                                                                  MS-AR-06-002



                                     values of requested refunds would have required sample
                                     sizes many times larger than those PTM used. The
                                     appendix provides our detailed analysis of PTM’s sampling
                                     methodology.

                                     We suggest testing for the existence of errors, rather than
                                     dollar values. This approach reliably tests for control
                                     weaknesses with smaller samples than are needed to test
                                     the dollar value of refund requests. PTM could have tested
                                     for control weaknesses using a sample size of 80 to
                                     150 refund requests per quarter. One option might be to
                                     stratify based on time (such as 50 per month) to even out
                                     the data collection and analysis load. PTM could total the
                                     results quarterly or semiannually, treating each month as a
                                     separate stratum.

                                     Table 1 shows that if PTM had selected only 150 sample
                                     items per review for each of the 15 physical reviews
                                     performed during our scope, PTM could have saved the
                                     Postal Service approximately $102,000 in travel and
                                     contractor hourly charges.

                                           Table 1. Travel and Contractor Hourly Charges

                                          Review           Trip Grand Total Trip Cost
                                                                     4               5
                                          Number           Total Cost  (150 Sampled)                    Savings
                                             1               $4,416.31       $4,416.31                       $0.00
                                             2               11,522.44        4,125.57                    7,396.87
                                             3               13,377.00        5,326.07                    8,050.93
                                             4                8,868.42        4,098.40                    4,770.02
                                             5                7,594.78        5,335.38                    2,259.40
                                             6               15,423.26        4,968.58                   10,454.68
                                             7               16,439.00        5,159.32                   11,279.68
                                             8                1,547.13        1,547.13                        0.00
                                             9               15,402.37        6,871.50                    8,530.87
                                            10               20,917.68        6,933.65                   13,984.03
                                            11               14,945.10        6,121.75                    8,823.35
                                            12               11,739.06        6,864.00                    4,875.06
                                            13               14,897.54        6,352.60                    8,544.94
                                            14               11,522.30        7,162.08                    4,360.22
                                            15               15,265.71        6,613.68                    8,652.03
                                            TOTALS         $183,878.10      $81,896.02                 $101,982.08


4
  This is the total cost for all personnel who performed the review. Costs include airfare, per diem, car rental,
miscellaneous, and contractor hourly rates.
5
  This trip cost assumes a sample size of 150 and one traveler to complete the selected sample.




                                                            4
PC Postage Refund Review                                                                             MS-AR-06-002



    Refund Review                 PTM plans to perform all refund reviews without traveling to
    Requirements Should           provider sites. However, because physical reviews are not
    be Documented                 currently conducted remotely, requirements for those
                                  reviews are not included in the updated procedure
                                  guidelines. The guidelines, PC Postage Refund Procedure
                                  for Unused Postage, issued November 2005, do not require
                                  PC Postage providers to provide remote access to physical
                                  and electronic records. This occurred because PTM
                                  managers did not want the requirements to be provider-
                                  specific, where access to one provider’s electronic systems
                                  may be necessary to perform refund reviews while access to
                                  another provider’s systems may not be.

                                  In addition, PTM managers stated that although PC Postage
                                  Refund Procedure for Unused Postage requires providers to
                                  mail physical evidence supporting exception requests6 to
                                  PTM, it does not give PTM access to providers’ electronic
                                  systems or require providers to mail the supporting
                                  documentation necessary for PTM’s periodic review of
                                  physical refunds.

                                  If PTM does not gain remote access to providers’ physical
                                  and electronic systems of records, PTM will have to continue
                                  conducting physical reviews on location at provider sites,
                                  which could increase costs to the Postal Service.

    Recommendations               We recommend the vice president, Product Development,
                                  direct the manager, Postage Technology Management, to:

                                       1. Coordinate with the Postal Service Statistical
                                          Programs Office to develop a valid refund sampling
                                          plan that would provide the required oversight and
                                          minimize Postal Service resource expenditures.

                                       2. Update the PC Postage Refund Procedure for
                                          Unused Postage guidelines to ensure that providers’
                                          systems of records are available to the Postal Service
                                          using remote methods.

    Management’s                  Management agreed with recommendations 1 and 2. For
    Comments                      recommendation 1, management stated PTM has already
                                  contacted the Postal Service Statistical Programs Office

6
 Exception requests are envelopes or label stock with incomplete postage printed because of a printer jam or other
malfunction.




                                                         5
PC Postage Refund Review                                                       MS-AR-06-002



                           to request assistance in developing a new sampling plan.
                           Management has set a date of August 31, 2006, to
                           complete a new sampling plan. For recommendation 2, by
                           April 1, 2006, PTM will update the PC Postage refund
                           procedures to clarify the definition of “remote” access, and
                           include the requirement for Postal Service access to
                           providers’ systems of records.

 Evaluation of             Management’s comments are responsive to the
 Management’s              recommendations. Management’s actions taken and
 Comments                  planned should correct the issues identified in the finding.




                                            6
PC Postage Refund Review                                                     MS-AR-06-002




 Need for More             The PTM office’s refund oversight controls need
 Effective Oversight       improvement. PC Postage providers should adequately
 Controls                  secure, and restrict access to, customer-returned envelopes
                           and labels bearing indicia. This control extends to the
                           storage of such items while awaiting PTM review, as well as
                           the storage and destruction of the items after PTM review.
                           In addition, system processing and accounting controls
                           need strengthening.

 Non-dated Indicia         Non-dated indicia at one provider were inadequately
 Should be Secured         secured. These indicia were stored in a limited access
                           room behind a receptionist’s desk that was often left open
                           and unlocked during the day, allowing unauthorized
                           personnel potential access. This occurred because the
                           provider moved from a facility where non-dated indicia were
                           previously kept in a vault to a new facility where no vault
                           was available. In addition, although PTM management was
                           aware of the limited access room, it did not require the
                           provider to strengthen controls by restricting access to the
                           non-dated indicia.

                           Best business practices, as demonstrated by Postal Service
                           policies and procedures for accountable stock, provide for
                           adequate safeguarding of these indicia. Postal Operations
                           Manual, Issue 9-126.24, Protecting Stamps and
                           Accountable Stock, states that stamps, postal stationery,
                           blank money orders, and other accountable items must be
                           protected at all times. They may be stored in a locked cash
                           drawer or cabinet for short periods during the duty day. At
                           other times, they must be stored in the main vault or
                           security container that protects them best. Additionally,
                           Handbook F-1, 422.1, Protecting Stamp Stock, requires
                           giving postage and nonpostal stamps the best possible
                           protection. Thus, stamps must be kept in places
                           inaccessible to the public and concealed from public view
                           during business hours.

                           The non-dated indicia stored in the limited access room
                           represent funds returned to the original customer, which
                           could be taken by an unauthorized person and affixed to
                           mailpieces to defraud the Postal Service.

                           During our audit, PTM management took corrective action
                           by updating the PC Postage Refund Procedure for Unused




                                           7
PC Postage Refund Review                                                       MS-AR-06-002



                           Postage. The policy over access to non-dated indicia now
                           requires providers to restrict access to authorized personnel
                           by storing the envelopes and labels bearing indicia in a
                           secure location. Access is limited to personnel who process
                           and destroy indicia. The change in Postal Service policy to
                           protect non-dated indicia addresses our concern; therefore,
                           we are making no recommendation.

 Controls Over             One provider had inadequate security and access controls
 Destruction Should be     over the destruction of non-dated indicia. These indicia
 Strengthened              were destroyed along with other business documents at the
                           provider site by a mobile shredding company without a
                           Postal Service representative present. This occurred
                           because PTM did not require Postal Service presence for
                           the destruction of these items or require the provider to
                           keep a log of the value of non-dated indicia. The provider
                           believed its process was adequate, since PTM had been
                           advised of the process and required no changes.

                           Postal Operations Manual, Issue 9 – 126.25, Destroying
                           Stamps and Accountable Stock, requires all nonsalable
                           postage items to be sent periodically to a designated
                           committee at the stamp distribution office or accountable
                           paper depository for verification and destruction.
                           Handbook F-1, 453, Stamp Destruction Committee,
                           provides that the responsibilities of the committee are to:

                              1. Count and verify that stamp stock submitted for
                                 destruction matches the information on Postal
                                 Service Form 17, Stamp Requisition/Stamp Return.

                              2. Log into a spreadsheet the information pertinent to a
                                 destruction, including values.

                              3. Verify stock to be destroyed against the spreadsheet,
                                 destroy stamp stock, and certify that the stock has
                                 been destroyed.

                           Non-dated indicia represent funds returned to the original
                           customer, which could be taken by an unauthorized person
                           and affixed to mailpieces to defraud the Postal Service.




                                            8
PC Postage Refund Review                                                  MS-AR-06-002



 System Processing         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 and Accounting            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 Controls Need             xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 Strengthening             xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxx.

                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxxxxxx.

                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

 Recommendations           We recommend the vice president, Product Development,
                           direct the manager, Postage Technology Management, to:

                              3. Update in the PC Postage Refund Procedure for
                                 Unused Postage policy the requirements for properly
                                 documenting the value of destroyed non-dated
                                 indicia, as well as Postal Service presence and
                                 verification of the destruction.
                              4. Coordinate with the Eagan Integrated Business
                                 System Solutions Center to request a National Meter
                                 Accounting and Tracking System change for the




                                          9
PC Postage Refund Review                                                       MS-AR-06-002



                                  necessary data field to show that a reimbursement
                                  was paid on a closed account.

 Management’s              Management agreed with recommendations 3 and 4. For
 Comments                  recommendation 3, management agreed that controls
                           surrounding the destruction of non-dated indicia should be
                           strengthened by the providers, but do not believe that the
                           Postal Service should mandate the specific controls required.
                           Therefore, in response to this recommendation management
                           revised the PC Postage Refund Procedure for Unused
                           Postage, requiring providers to submit proposed destruction
                           procedures for Postal Service review and approval.
                           Management plans to distribute the revised guidelines to PC
                           Postage providers by April 1, 2006. For recommendation 4,
                           PTM has contacted the Eagan Integrated Business System
                           Solution Center to begin designing and implementing the
                           required change to the National Meter Accounting and
                           Tracking System. Management expects the change to be
                           implemented by August 31, 2006.

 Evaluation of             Management’s comments are responsive to the
 Management’s              recommendations. Management’s actions taken and
 Comments                  planned should correct the issues identified in the finding.




                                            10
PC Postage Refund Review                                                                               MS-AR-06-002



                           APPENDIX A. STATISTICAL REVIEW

Overall
We calculated the achieved precision for two recent PTM samples, at both 95 percent
and 90 percent confidence levels, and determined that the samples resulted in a
confidence interval that could not be used to determine whether the Postal Service
owed the provider money or the provider owed the Postal Service money. A negative to
positive swing in the confidence limits7 indicated the sample results were inconclusive
regarding the total dollar amount of refunds that should be disallowed. The width of a
confidence interval provides an indication of uncertainty about the unknown parameter.
The interval determined during our review of two refund review samples indicated that
more data should have been collected before definite conclusions could be drawn
regarding whether the Postal Service should disallow any of the requested refund
amount.

Based on our review of two refund review sample selections and results, we determined
the following:

    •    The results with the sample size used do not allow the Postal Service to state
         that the dollar amount paid is incorrect.
    •    PTM should not use these achieved results to increase or decrease the
         reimbursement paid to the vendor.
    •    PTM should accept the requested refund reimbursement amount, adjusted for
         any actual errors identified.

Precision
In this review, we observed that the achieved precision exceeded +/- 100 percent of the
projected disallowed amounts.

The uncertainty intervals are so large that the U.S. Postal Service Office of Inspector
General would not consider the results reportable. The two extremes of the confidence
interval lead to completely opposite conclusions. For example, the achieved confidence
interval around the projected disallowed amount of $2,288 ranges from $5,433
disallowed in the vendor’s request to the Postal Service owing the vendor $895 more
than the vendor requested.

Conclusion
The current methodology does not produce usable precision for rejecting the refund
requests or indicating an adjustment amount. Therefore, PTM should accept the
requested amount and adjust for actual known error amounts.

7
  Confidence limits for the mean of a sample are an interval estimate for the mean. A confidence limit gives some
indication of how close an estimate is likely to be to the mean of a sample. Confidence limits are the lower and upper
boundaries (values) of a confidence interval, that is, the boundaries that define the range of a confidence interval.




                                                         11
PC Postage Refund Review                                                           MS-AR-06-002



Sample Size
The precision achieved (two data sets only) provides evidence that PTM would need an
extremely large sample size (many times larger than PTM used) to achieve acceptable
precision on the adjustment dollar amount. Therefore, we suggest testing for control
weakness, with no dollar adjustments made unless errors reach unacceptable levels.
Currently, the risk appears low; the dollar amounts of requested refunds are extremely
small and there seem to be very few errors.

In an attribute test, the value of an error is not projected, just the existence of an error.

PTM can hold the sample size to a minimum by using a simple random sample (that is,
no stratification). Even with stratification, the sample size for an attribute test (of the
existence of an error) could be considerably smaller than for the variable test (of the
dollar value of an error). PTM can record and separately project a variety of individual
error attributes from the same sampled records. For example, PTM could count
whether at least one error exists for a record; whether the error is of a particular type; or
whether the error amount for that record is above or below some threshold. PTM could
then project how many errors exist in the universe with error amounts exceeding a set
dollar threshold.

Conclusion
In our opinion, PTM needs a much larger sample to reliably project total dollar errors.
However, the error dollars found do not make a larger sample worthwhile.




                                              12
PC Postage Refund Review                             MS-AR-06-002



                 APPENDIX B. MANAGEMENT’S COMMENTS




                                13
PC Postage Refund Review        MS-AR-06-002




                           14
PC Postage Refund Review        MS-AR-06-002




                           15
